<html>
<title> - MARKUP OF H.R. 3352, H.RES. 220, H.RES. 221, H.RES. 222, H.RES. 358, H.R. 2037, H.R. 3206, and H.R. 3460</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 MARKUP OF H.R. 3352, H.RES. 220, H.RES. 221, H.RES. 222, H.RES. 358, 
                  H.R. 2037, H.R. 3206, and H.R. 3460

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 26, 2019

                               __________

                           Serial No. 116-52

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-041PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                      

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas  

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

               BILLS, RESOLUTIONS, AND AMENDMENTS EN BLOC

H.RES. 220.......................................................    26
H.RES. 221.......................................................    30
H.RES. 222.......................................................    35
H.RES. 358.......................................................    39
H.R. 3460........................................................    47
H.R. 2037........................................................    61
Amendment to H.R. 2037 offered by Mr. McCaul.....................    73
H.R. 3206........................................................    74
Amendment to H.R. 3206 offered by Mr. McCaul.....................    83
Amendment to H.R. 3206 offered by Mr. Kinzinger..................    84
H.R. 3352........................................................    85
Amendment to H.R. 3352 offered by Mr. Bera.......................   257
Amendment to H.R. 3352 offered by Mr. Connolly...................   259
Amendment to H.R. 3352 offered by Mr. Engel......................   263
Amendment to H.R. 3352 offered by Mr. Guest......................   266
Amendment to H.R. 3352 offered by Ms. Houlahan...................   268
Amendment to H.R. 3352 offered by Ms. Houlahan...................   269
Amendment to H.R. 3352 offered by Mr. Keating....................   271
Amendment to H.R. 3352 offered by Mr. Keating....................   272
Amendment to H.R. 3352 offered by Mr. Keating....................   274
Amendment to H.R. 3352 offered by Mr. Keating....................   275
Amendment to H.R. 3352 offered by Mr. Keating....................   276
Amendment to H.R. 3352 offered by Mr. Keating....................   278
Amendment to H.R. 3352 offered by Mr. Lieu.......................   280
Amendment to H.R. 3352 offered by Mr. Malinowski.................   288
Amendment to H.R. 3352 offered by Mr. Malinowski.................   290
Amendment to H.R. 3352 offered by Ms. Omar.......................   292
Amendment to H.R. 3352 offered by Mr. Phillips...................   295
Amendment to H.R. 3352 offered by Mr. Reschenthaler..............   296
Amendment to H.R. 3352 offered by Mr. Smith......................   300
Amendment to H.R. 3352 offered by Ms. Spanberger.................   302
Amendment to H.R. 3352 offered by Ms. Spanberger.................   303
Amendment to H.R. 3352 offered by Ms. Spanberger.................   304
Amendment to H.R. 3352 offered by Ms. Spanberger.................   305
Amendment to H.R. 3352 offered by Ms. Titus......................   307
Amendment to H.R. 3352 offered by Mr. Zeldin.....................   309

                                APPENDIX

Hearing Notice...................................................   312
Hearing Minutes..................................................   313
Hearing Attendance...............................................   314
Markup Summary...................................................   315

 
 MARKUP OF H.R. 3352, H.RES. 220, H.RES. 221, H.RES. 222, H.RES. 358, 
                  H.R. 2037, H.R. 3206, and H.R. 3460

                        Wednesday, June 26, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Pursuant to notice, we meet today to mark up eight 
measures. Without objection, the chair is authorized to declare 
a recess of the committee at any point.
    Pursuant to Committee Rule 4, the chair announces that the 
chair may postpone further proceedings on approving any measure 
or matter or adopting an amendment.
    Without objection, all members may have 5 days to submit 
statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to consider 
today's measures and amendments en bloc.
    At this time, I recognize myself to speak on today's 
business.
    Let me, first of all, say that I am pleased to support all 
of the measures before us today, and I thank our members for 
their hard work.
    I want to start by discussing three bipartisan resolutions 
I introduced with Ranking Member McCaul that outline what I see 
as the three pillars that uphold the successful, uniquely 
American foreign policy.
    First, House Resolution 222 reaffirms the importance of 
America's alliances and partnerships. We are in a much better 
position to diffuse crises, to respond to global challenges 
like climate change and deadly pandemics, and to push back 
against aggressive regimes and other threats, when we are 
standing shoulder to shoulder with our friends and allies.
    The second resolution, House Resolution 221, makes clear 
that human rights, democracy, and the rule of law should be at 
the center of our foreign policy. Our actions abroad should 
reflect our country's spirit of generosity and compassion, and 
development efforts that help countries and communities lift 
themselves up, that help people grow enough food to feed their 
communities, that push governments to become more open and 
accountable.
    These are the right things to do, and it is also the smart 
thing to do. Countries that are freer and more inclusive with 
economies that are thriving, and justice systems that are fair, 
tend to be more stable and better partners for the U.S.
    We see an example of this with Mr. Malinowski's bill, the 
Saudi Arabia Human Rights Accountability Act. Saudi Arabia is 
an important security partner, but we cannot just look the 
other way when they ignore international norms and basic human 
rights.
    The horrific murder of Jamal Khashoggi demands 
accountability and justice. After the astounding evidence we 
have seen, it cannot just be business as usual. And since the 
Administration is dragging its feet on taking any meaningful 
action, Congress must step forward.
    That brings me to our third pillar resolution, H.Res. 220, 
which recognizes the importance of diplomacy and development to 
our national security and supports a strong international 
affairs budget. I was pleased to work closely with Ranking 
Member McCaul, along with our Appropriations colleagues, 
Chairwoman Lowey and Ranking Member Rogers, in authoring this 
resolution.
    For the last 2 years, Congress has come together in a 
bipartisan manner to reject the administration's effort to 
slash funding for our diplomacy and development efforts. This 
resolution recognizes the important work our diplomats and 
development professionals do and the need to continue to 
demonstrate American leadership and values and promote U.S. 
interests through the international affairs budget.
    We should not forget, when we are talking about diplomacy, 
we are talking about people. We are talking about women and men 
and families who are willing to live in far-flung places and 
sometimes face great dangers because they have all answered the 
call to serve. We need to make it clear to these dedicated 
public servants, and to the rest of the world, that the United 
States understands the value of diplomacy, and we need to give 
our personnel the support and resources they need to carry out 
this important work. This affects America's national security 
and our partner nations around the globe.
    And how do we bring all this to life? How do we advance our 
foreign policy interests and empower our diplomatic 
institutions to do the work? Well, we need a fully authorized, 
reinvigorated State Department. Every year, the National 
Defense Authorization Act is considered a must-pass bill, but 
it has been 17 years--let me repeat that, 17 years--since the 
State Department authorization has been signed into law.
    From my time as Ranking Member with Chairman Ed Royce, it 
has been my goal to make authorizing the State Department a 
regular part of this committee's work. We need to get the State 
Department authorization to become a must-pass bill, like the 
NDAA, because we know that diplomacy, along with defense, is 
critical to our national security.
    So, I am proud that today we are marking up the State 
Department Authorization Act that I introduced with Mr. McCaul. 
There is no difference in the way Mr. McCaul sees this and the 
way I see this. This bipartisan bill strengthens the management 
and operations of the Department of State, including provisions 
to recruit and retain a diverse work force, bolster embassy and 
information security, and improve the Department's public 
diplomacy, anti-corruption, and security assistance efforts.
    And today's measure is just the beginning, laying the 
foundation for our committee's work in the years to come, to 
keep the State Department strong, and ensure that our diplomacy 
and development work force can best advance American foreign 
policy.
    I especially want to thank Grant Mullins on the Ranking 
Member's staff and Laura Cary on my staff for their incredible 
efforts in shepherding this bill through committee.
    Again, I am pleased to support all of the measures on 
today's markup, and I urge all members to join me in doing so.
    And I will now recognize our Ranking Member, Mr. McCaul of 
Texas, for his remarks.
    Mr. McCaul. Thank you, Mr. Chairman. And I want to thank 
you for your hard work in once again demonstrating that this 
committee is the most bipartisan committee in the Congress.
    Today, our committee will consider eight measures, 
including the Department of State Authorization Act. This 
committee has not considered a State authorization bill since 
2013, and the last comprehensive authorization bill became law 
in 2002.
    I am pleased that this bipartisan bill builds on the text 
that former Chairman Royce introduced last year and includes 
several legislative proposals from Members on my side of the 
aisle. I support this bill which reasserts Congress' 
constitutional Article I authority to give direction to the 
Department. It is vital that the committee that has the 
constitution authority to declare war better express our 
oversight, and that is exactly what we are doing here today.
    Specifically, it provides for cost-saving measures in 
embassy construction, streamlines and eliminates some special 
envoys, eliminates outdated and duplicative reports, and 
authorizes anti-corruption programming, among other necessary 
provisions. It also ensures the efficiency of various 
Department programs by mandating rigorous success-measuring 
metrics.
    I would also like to thank Mr. Kinzinger for introducing 
the Protecting Europe's Energy Security Act. Vladimir Putin is 
not our friend. He is an enemy. And Putin continues to use 
energy and gas as weapons against Europe. There is no worse 
example of this tactic than the Nord Stream 2 pipeline, which 
would allow Russia, if it chooses to do so, to hold Europe 
hostage. And that is why this bill that we are considering 
today is so important, because it would employ very targeted 
sanctions on companies that are currently participating in 
laying the underwater portion of the Nord Stream 2 pipeline. At 
a time when Vladimir Putin is using all of his tactics to sow 
discord and chaos around the world, including among our 
European allies, we need to work together to stop these actions 
impacting our national security interests in cooperation with 
our Transatlantic allies. I proudly support this bill, which 
delivers a blow to Russia's weaponization of energy in Europe 
and around the world.
    I also want to thank Mr. Smith for his work on the End 
Neglected Tropical Diseases Act. I am proud to be an original 
cosponsor of this bill that supports international efforts to 
treat and eradicate neglected tropical diseases with no 
additional cost to the taxpayer.
    Again, Mr. Chairman, let me convey my gratitude and 
appreciation for you and your leadership in getting good things 
done on behalf of the American people and our foreign policy. 
And this is, I believe, the way Congress should and is supposed 
to work.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. McCaul. I agree with 
everything you just said and am pleased to work closely with 
you. This product, as I mentioned before, is a product of close 
collaboration on both sides of the aisle, and I think that the 
finished product is a great product.
    Are there any other members seeking recognition? Ms. Bass?
    Ms. Bass. Thank you. Thank you very much, Mr. Chair, for 
your leadership, and the Ranking Member.
    I wanted to speak about the resolution H.Res. 358, calling 
on the government of Cameroon and armed groups to respect the 
human rights of all Cameroonian citizens, to end all violence, 
and to pursue a broad-based dialog without preconditions to 
resolve the conflict in the northwest and southwest regions.
    The situation in Cameroon continues to decline. And to be 
frank, Congress, the international community, and Cameroonian 
citizens who I receive regularly in our office, either in 
person or by phone, are concerned about where this country is 
heading. The tensions in the Anglophone region are not new. 
People have felt disenfranchised and marginalized since the end 
of colonialism. But, as we heard, the current situation arose 
in late 2016, after the government was heavy-handed in its 
response to the Anglophone protest movement, killing 
protestors, arresting hundreds, and deploying government 
security forces.
    On the other side, the Anglophone movement has also 
transformed. There are elements that are now a separatist 
movement. Separatists have become more and more militant and 
have been accused of committing abuses, including killing 
security forces, attacking and burning down schools, and 
attacking citizens.
    People in the Anglophone region feel deeply wounded. Over 
the course of the last week or so in my office, we have 
received hundreds of calls from people saying that there is 
genocide in the Anglophone region. Meanwhile, the government 
has said that there is no one to negotiate with and the 
separatists do not want to come to the table.
    What this says to me is that there is serious work to be 
done to bring both sides to the table to end this conflict, and 
to determine whether or not genocide is actually taking place. 
I do not aim to tell this country what to do. What we here in 
Congress want to do is to encourage dialog in order to make 
sure that Cameroon is not the site of a civil war. The 
government must recognize that it is facing a real national 
crisis and the international community is watching. And 
activists must realize that peaceful, nonviolent protests is 
the only way to get people to hear their cause.
    This resolution, H.Res. 358, calls on the government of 
Cameroon and armed groups to respect the human rights of all 
Cameroonian citizens, to end all violence, and to pursue a 
broad-based dialog without preconditions to resolve the 
conflict in the northwest and southwest regions. I encourage my 
colleagues to support this resolution and to send a message to 
Cameroon and the world that we remain engaged in the world.
    I also want to express my support for the legislation H.R. 
3460, End Neglected Tropical Disease Act, that Representative 
Smith has worked on for a number of years. I am glad that we 
are voting on it today in this markup, but I also look forward 
to the second half of the bill being discussed and marked up in 
another committee, and taking both sides of the bill to passage 
on the floor.
    With that, I yield back.
    Chairman Engel. Thank you, Ms. Bass.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you 
again, you and Michael McCaul, for working in such a bipartisan 
way.
    I do want to associate my remarks strongly with Chairwoman 
Bass on the Cameroonian resolution. It is an excellent 
resolution. And 1 year ago tomorrow, I chaired a hearing, 
joined by my then-Ranking Member, and we have been absolutely 
seamless in our concern about what is happening in Cameroon.
    We heard about this growing crisis of the Cameroonian 
government cracking down on individuals who are Anglophone. It 
is amazing that there could be such a divide. And yet, the loss 
of life has been horrific.
    So, I want to thank her for her tremendous resolution. I am 
very proud to be one of the 41 cosponsors, but I do thank her 
for that.
    Let me also say thank you, Mr. Chairman and Ranking Member, 
for bringing the End Neglected Tropical Diseases Act to the 
committee. And again, Karen Bass, Gregory Meeks, thank you for 
your cosponsorship of this.
    As I think most members may know, neglected tropical 
diseases, or NTDs for short, are a group of 17 parasitic and 
bacterial diseases which blind, disable, disfigure, and 
sometimes kill victims. They open up people to opportunistic 
diseases as well. And usually, mal-affects the world's poorest 
people, trapping the most marginalized communities in cycles of 
poverty. These diseases keep children from attending school and 
their parents from working, and causes excessive bleeding by 
mothers during birth, resulting in low birth weight babies.
    NTDs also constitute a significant hurdle to achieving 
economic growth. When large numbers of people are mal-affected, 
it leads to real, real negative impacts to the ability to go to 
school. And those children, as they matriculate into adulthood, 
find it very hard to get jobs going forward.
    We know what is happening even in our own country with West 
Nile virus, dengue fever, and more recently, with zika. The 
most common NTDs could be controlled and eliminated, and I will 
not go into too much detail, but there are three worms, a 
roundworm, a whipworm, and hookworm that alone constitute about 
1.5 billion people around the world who carry in their 
intestines worms. And these are mostly children, mal-affected, 
again, by this horrible, horrible list of diseases.
    There is also a number of other diseases. I will not go 
into all the details. But every one of them hurts people so 
severely, particularly in Africa and Latin America. And to give 
you an example, the cost of treating just one hookworm is 4 
cents--4 cents. I mean, talk about being able to eliminate 
misery for pennies on the dollar. Four cents to treat it.
    We also want to work on it systemically. This legislation, 
a whole-of-government approach with incorporating or 
integrating water sanitation and health, the WASH programs, 
also seeks to do that.
    Let me also just commend USAID for the work they have done 
in getting contributions from the pharmaceutical companies, now 
almost to the point of $19 billion in value. GlaxoSmithKline 
and J&J and Merck have been great partners in trying to 
mitigate this misery throughout the world.
    And as my good friend and colleague, Karen Bass, said a 
moment ago, there is another aspect to this bill which would 
establish centers for excellence. That has been held up by the 
Energy and Commerce Committee for 6 years. We are at least 
moving this part of the bill separately to try to get this 
further promoted by this Congress.
    We spend about $102 million. Barack Obama looked to cut it 
down to $80 million. This current President, President Trump, 
also would cut it. Every time the appropriators--and we have 
weighed in with them strongly--have gotten back to the $100 
million-plus figure for NTDs. I, frankly, think it should be 
higher. But, again, this strategy bill I think will move us in 
that direction.
    I thank my friends and yield back.
    Chairman Engel. Thank you, Mr. Smith.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    I will address the latter seven bills first, and then, 
return to the State Department authorization bill. As to the 
latter seven bills, I am pleased to cosponsor all of them.
    It is time that we recognize the importance of diplomacy 
and development in our foreign policy. And we spend only one-
quarter of 1 percent of our GDP on foreign aid. This money is 
the best money we invest in our own security and in meeting our 
moral obligation to poor people around the world.
    The next resolution recognizes the importance of democracy, 
human rights, and the rule of law, particularly important with 
one-third of the world's population living in what is described 
as backsliding democracies.
    The next resolution recognizes the importance of our 
alliances and partnerships. I want to commend Ms. Bass for her 
resolution regarding Cameroon, where there are over 500,000 
displaced persons and hundreds of deaths. And the resolution 
appropriately urges both the government and separatist groups 
to engage in broad-based dialog without preconditions.
    Mr. Malinowski has put forward a good resolution regarding 
those responsible for the death of Jamal Khashoggi by denying 
them visas. I also want to mention, as I always do, the 
importance of preventing Saudi Arabia from developing a nuclear 
weapon. In the Science Committee yesterday, the Secretary of 
Energy promised to give to this committee, as well as the 
Science Committee, any further Part 810 licenses that are 
issued to allow American companies to share nuclear technology 
in their discussions with Saudi Arabia.
    H.R. 3206 focused on the real threat, I think, to NATO of 
making Germany and other parts of Central Europe dependent upon 
a pipeline for natural gas, a pipeline that comes from Russia.
    And finally, Mr. Smith I think well described the 
importance of H.R. 3460 to end neglected tropical diseases.
    As to the State Department authorization bill, I think we 
would all cosponsor it, except the leadership has decided to 
just have one sponsor and one cosponsor, and that is certainly 
a reasonable approach. As has been pointed out, the State 
Department last had an authorization bill in 2002. We have in 
Congress authorization committees and appropriations 
committees. Only in the foreign policy area has the 
authorization committee been pushed to the side to this degree. 
We cannot let it continue. This bill, and passing it into law, 
is the first step to do in foreign policy what we do in other 
areas, for example, defense policy, where the NDAA bill plays a 
critical role in outlining our defense operations and 
objectives. We need to have the same role for this committee 
when it comes to foreign policy.
    Not only do we need to annually pass into law a State 
Department authorization bill--and I commend the chairman and 
the Ranking Member for getting us this far, and I think 
probably getting us all the way there--we need to have an 
authorizing bill for our foreign assistance. It was in 1961 
that Congress passed the Foreign Assistance Act. Since the 
1980's, Congress has not passed a full-scale authorization 
bill, nor a full rewrite the 1961 act. We have dealt with 
particular crises, such as the AIDS crisis, but if our foreign 
aid dollars are going to be spent effectively, and if our 
foreign policy is going to reflect the values of 2019 and 2020, 
rather than the values in 1961, we need to have an 
authorization bill in the foreign assistance area as well.
    So, I look forward to joining with the chairman and the 
Ranking Member in what I think will have to be a long-term 
process of making sure that our operations in foreign policy 
are influenced by this committee, just as every other 
authorizing committee authorizes the programs under its 
jurisdiction.
    I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and I will 
mercifully keep this under 5 minutes.
    Over the years, we have watched Vladimir Putin weaponize 
natural gas across the region. Through intimidation and 
coercion, Russia has tried to use energy dependence as a means 
to hold our European allies hostage, and this is something we 
all know.
    The completion of the Nord Stream 2 and TurkStream 
pipelines would further endanger millions of Europeans, 
destabilizing the continent. I introduced H.R. 3206, the 
Protecting Europe's Energy Security Act, with Representatives 
Heck and Pence to prevent this from happening. My legislation 
would impose targeted sanctions on pipe-laying vessels to stop 
the construction of Nord Stream 2 and the TurkStream projects. 
By targeting the pipe-laying ships, we would stop the work in 
its tracks, but not allow for unintended consequences against 
the economies of our allies in Europe.
    The United States must stand with our NATO and EU allies to 
protected our shared values and security by pushing back 
against Putin's power grab. Luckily, many European nations 
realize the danger that these pipelines would pose to their 
security. Allies like Poland, Denmark, Ukraine, and the U.K. 
have all expressed opposition to Russia's dominance of the 
European energy market.
    And on a side note, I will just mention that our energy 
explosion has been very beneficial, as we have seen our natural 
gas, our LNG exports only be limited by the lack of 
infrastructure to export them.
    However, Germany, a cornerstone of our Transatlantic 
alliance, is using the Nord Stream 2 project to gain a 
competitive advantage over their EU partners. Actions like 
these undoubtedly strain European cohesion. To ensure American 
and European interests are protected, I also offered a 
clarifying amendment to ensure that nothing in this bill would 
affect pipelines that originate outside of the territory of 
Russia.
    In March, I introduced H.R. 1616, the European Energy 
Security and Diversification Act, with Chairman Keating, to 
incentivize European nations to develop their own domestic 
energy sources. This committee unanimously passed that 
legislation, and it received overwhelming bipartisan support on 
the floor.
    These two bills, acting as a carrot and a stick, would 
ensure that America's European allies are protected from 
Russia's malign use of energy as a weapon.
    I want to thank Chairman Engel and Ranking Member McCaul 
for bringing the Protect Europe's Energy Security Act before us 
today, and I urge my colleagues to support this very important 
legislation.
    And with that, I will yield back my time.
    Chairman Engel. Thank you, Mr. Kinzinger.
    Mr. Keating.
    Mr. Keating. I would like to thank the chair. Thank you, 
Mr. Chair, and the Ranking Member, and, significantly, our 
staff for all their work leading us to this markup and bringing 
forward the State authorization bill as well as the other 
important pieces of legislation that have been referenced 
already.
    At a time when there is great uncertainty around the world, 
we should be doing as much as we can to coordinate with our 
partners in democracy and human rights on issues of anti-
corruption, rule of law, humanitarian assistance, trade, and 
investment. In all these efforts, the United States should lead 
by example to ensure greater rights and inclusion for women, 
minorities, marginalized populations, and LGBTI individuals. 
This is critical to our own security as well as to many of our 
core values that are central to our democracy.
    That is why my amendments aim to promote the roles of civil 
society and women in advancing peacekeeping efforts, improving 
the rule of law, strengthening democratic institutions, as well 
as assist our partners in their efforts to combat corruption 
and screen foreign investments to better counter Russian and 
Chinese influence.
    At hearings I held as subcommittee chair with my Ranking 
Member on Europe, Eurasia, Energy and Environment, we heard 
concerns from bipartisan experts about China's efforts to 
control security infrastructure and Russia's malign influence 
in economic activities. Screening potential foreign investments 
for national security concerns is key to protecting our 
economies and our security and a longstanding practice in this 
country. We should be doing more to ensure U.S. allies are 
taking the necessary steps to protect their security 
infrastructure, their institutions, and financial systems from 
foreign threats, and by extension, protecting the American 
people as well by sharing information, best practices, 
technical assistance.
    Likewise, corruption is a problem that affects every 
country, and we should be working together on anti-corruption 
efforts to hold all those accountable for their role in 
kleptocracies. Corruption does not stop at borders, and the 
strength of our partnership in this regard is key to 
successfully eliminating corruption.
    I would like to thank again Chairman Engel, Ranking Member 
McCaul, for including these amendments en bloc and their 
support for this act, and ensuring that U.S. foreign policy is 
advancing greater democracy, security, and prosperity at home 
and abroad.
    I yield back.
    Chairman Engel. Thank you, Mr. Keating.
    Mr. Pence.
    Mr. Pence. Mr. Chairman, I am proud to join Congressman 
Kinzinger as an original cosponsor of H.R. 3206. The energy 
security of our partners, particularly our NATO partners, is 
essential to our security as well as theirs. The Nord Stream 2 
project represents a threat to the progress many NATO partners 
have made on energy security issues, and this legislation is a 
prudent step in preventing this dangerous project from being 
completed. I hope all my colleagues will join us in supporting 
this legislation.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. Pence.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I want to thank you, 
Mr. Chairman, for working with me to continue to push for 
oversight and advancement of diversity at the State Department 
that includes everything from new Foreign Service Officers 
coming in, to taking steps to see that there is increased 
diversity at the highest ranks.
    I look forward to continuing to work on this issue in a 
bipartisan way and hope that, as Members of Congress travel, 
they are able to see the diversity in our diplomats that 
represent us. Right now, on the Hill there are Rangel Fellows 
that will be the next generation of diplomats that will 
continue that progress. And I think that speaks well about who 
we are as a nation and as a people, when they see that kind of 
diversity, because that is the example that we can set for 
many.
    I also just want to say that a number of the other bills 
recognize the interdependence of diplomacy, development, and 
defense as critical to our effective national security. As had 
been said, all of the money and all of the efforts that we can 
put into diplomacy is tremendously important. There was a 
general who said, you can either put it into diplomacy or put 
it into bullets. I think that we are all better off if we put 
it into diplomacy, and then, trying to make sure that diplomacy 
is an integral part, if not even a leading part, of what our 
public national security is all about. I think it is by far in 
an ever-shrinking world--when you talk about geographically, 
you can get to one place, almost around the world within 12 
hours--so, being able to diplomatically work together with 
those around the sphere, particularly our allies, is extremely 
important.
    I also want to say that the End Neglected Tropical diseases 
Act, I want to thank Ms. Bass and Mr. Smith for working on 
this. It is extremely important when you look at the number of 
diseases that should be wiped off this planet. And as one of 
the co-chairs of the End Malaria Now Caucus, it is something 
that we have got to continually stay focused on, so that these 
diseases are diseases that should not be anywhere on this 
planet. We have the ways to make sure that it is cured. It is 
also, particularly on here when you think about malaria on the 
continent of Africa, the lives that are lost and the potential 
that is gone. So, that bill that Mr. Smith and Ms. Bass have 
been working on is tremendously important. Glad that that is in 
here.
    The Saudi Arabia Human Rights and Accountability Act, we do 
have to hold individuals accountable in other countries for 
their actions. We cannot turn our backs on any circumstances 
against anyone when there are huge violations of human rights. 
And so, the Saudi Arabia Human Rights Accountability Act of 
2019 is extremely important.
    Likewise, H.Res. 358, calling on the government of Cameroon 
and armed groups to respect the human rights of all Cameroonian 
citizens, to end all violence, and to pursue a broad-based 
dialog without preconditions to resolve the conflict in the 
northwest and southwest regions, is extremely important. And I 
think that it is something, again, that we can continue to work 
on on a continuous basis. And we need to make sure that 
governments that are in this kind of struggle, we need to speak 
out and loud in letting them know that we are calling on the 
human rights of all citizens and definitely there in Cameroon.
    Emphasizing the importance of ally alliances and 
partnerships, I do not know anything better. In the world, when 
we become, I find, more interdependent upon one another, we 
will generally have a more peaceful and better place and a 
better world in which we live. And so, to emphasize the 
importance of alliances, we need to make sure that we 
strengthen the alliances that we currently have, for example, 
with our allies in Europe, our allies in Central and South 
America, our allies like Japan and like South Korea. Those are 
allies, those are relationships that help makes us all 
stronger, and to emphasize the need and the importance of these 
alliances like NATO is tremendously important. And I am proud 
to support that that is in this legislation.
    And I would just hope, in closing, that, as we look at the 
sanctions with respect to provisions of certain vessels for the 
construction of the Russian energy and export pipeline, that we 
make sure that we include our allies in that dialog and 
conversation, and we are not just doing something without 
working with them.
    And I yield back.
    Chairman Engel. Thank you, Mr. Meeks.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I want to thank you 
and the Ranking Member, Mr. McCaul, for your hard work to put 
forward a bipartisan State Department authorization bill.
    This markup today will put us on track to pass an 
authorization for the State Department for the first time since 
2002, when Henry Hyde was chair of this committee. It is 
something that I think we can all be proud of.
    While there are things in the bill that I do not like or 
that I do not think are necessary, that is the byproduct of 
bipartisan negotiation and compromise, something I think we 
need more of these days.
    I would just like to highlight a few important common-sense 
provisions in the bill. First, the bill requires that special 
envoys be confirmed by the Senate. Our Founding Fathers 
required that Congress approve key officials, and the current 
loophole diminishes our constitutional oversight role and our 
influence over foreign policies. This would be especially 
helpful, should we have another President like our previous one 
whose attitude about going around Congress was pretty much 
standard operating procedure.
    Second, the bill has several provisions to enhance good 
governance at the State Department. Whether it is requiring the 
Department to implement more GAO recommendations, ensuring that 
new embassies do not cost the taxpayer more than they should, 
or closing some of our less necessary facilities overseas, the 
bill takes some critical, long-overdue steps. As someone who 
believes that the Federal Government is extremely bloated and 
wasteful, these sorts of common-sense policies might not grab 
headlines, but they certainly mean that we did our job and do 
not have to take quite as much in taxes from hardworking 
Americans.
    Finally, over on the Judiciary Committee, where I just came 
from, we have seen just what happens when computers and how to 
handle data policies are not clearly articulated. Whether it is 
Hillary Clinton's homebrew server or Lois Lerner's emails that 
mysteriously disappeared, or the text that the FBI lost between 
Peter Strzok and Lisa Page, it is clear that the Federal 
Government needs better IT management. Section 504 goes a long 
way to preventing something like Hillary's email debacle to 
ever occur again, or something like it, at the State 
Department. Furthermore, the rest of Title 5 is also important, 
as it requires the Secretary to strengthen the State 
Department's defenses against cyberattacks. So, there is a lot 
of sound policy in this bill, and it is good to finally be 
voting on a State Department authorization again.
    I would also like to briefly mention two of the other bills 
we have before us today. First, I want to touch on Mr. 
Malinowski's Saudi Arabia Human Rights and Accountability Act. 
And I want to thank him for seeking to address the brutal 
murder of Jamal Khashoggi. As co-chair of the Freedom of the 
Press Caucus, I do not think we can condemn the murder of Mr. 
Khashoggi strongly enough, especially in light of the new U.N. 
report.
    I also want to thank Mr. McCaul for working on an amendment 
to place the bill in the broader context of our bilateral 
relationship with the Saudis, which remains critical to U.S. 
interests in the region, especially as Iran continues to 
display such reckless behavior.
    Finally, I want to take a moment to thank Mr. Kinzinger for 
his attention to the Nord Stream 2 pipeline. Some of our 
European allies are willing to make believe that increasing 
dependence on Russian gas is just fine in exchange for cheap 
energy. This is the last thing Europe needs right now, 
especially as Vladimir Putin seeks to reestablish Russia as a 
preeminent global power.
    Thank you, and I yield back.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Engel and Ranking Member 
McCaul, for holding this markup today and, once again, doing it 
in a bipartisan fashion, as we weigh in as a committee on 
issues of the utmost importance to the foreign policy 
priorities of the United States. And I, too, would like to 
acknowledge the staff of the committee for their hard work.
    The bills we have before us today signal this committee's 
continued commitment to the principles of diplomacy, 
development, democracy, human rights, and the rule of law, as 
well as reaffirming the importance of our international 
alliances and partnerships. Of this, we must be clear.
    It is also beneficial for this committee to reaffirm our 
commitment to these principles, but I wish it weren't so 
necessary at this moment when it seems like the current 
administration has ventured quite far from our founding 
principles. As the President and Secretary of State spend time 
courting dictators like Kim Jong Un and Mohammad bin Salman and 
praise right-wing leaders like Viktor Orban, there is currently 
no clarity about the United States' position on human rights, 
democracy, and universal values.
    So, I thank the chairman and Ranking Member for giving us 
this opportunity to be clear. The U.S. Congress supports 
building alliances. We support diplomacy. We support human 
rights and representative government, and women's rights and 
LGBTI rights, and the rights of religious minorities, and other 
vulnerable communities around the globe.
    And when a government and a leader is responsible for the 
brazen murder of an American resident, a journalist, we will 
not back down because it became inconvenient. I am proud to 
support Mr. Malinowski's bill, the Saudi Arabia Human Rights 
and Accountability Act of 2019 as a cosponsor, and hope that 
the administration will begin to take real steps to address the 
horrific murder of Jamal Khashoggi at the hands of the Saudi 
government, as well as other very well-documented human rights 
abuses.
    And underscoring the necessity of passing this bill are the 
findings of the U.N. Special Rapporteur who investigated the 
Khashoggi killing. And in the report, it concludes, Mr. 
Khashoggi's killing ``constituted an extrajudicial killing for 
which the State of the Kingdom of Saudi Arabia is 
responsible''. His attempted kidnapping would also constitute a 
violation under international human rights law. They go on to 
say, The Special Rapporteur has determined that there is 
``credible evidence warranting further investigation of high-
level Saudi officials' individual liability, including the 
crown prince's''. And so, the timing of this could not be more 
appropriate.
    I am pleased to support all the bills before the committee 
today, and particularly want to thank the chairman and the 
Ranking Member for giving us the opportunity to vote for the 
State Department authorization bill for the first time in many 
years, an important step to ensuring that the State Department 
can operate efficiently and adapt to the times.
    And again, thank you for your leadership. And I yield back 
the balance of my time.
    Chairman Engel. Thank you, Mr. Cicilline.
    Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    I was fortunate to serve alongside the brave men and women 
of the State Department during my time in Iraq. And I also know 
firsthand how living in a combat zone takes its toll. During my 
time in Baghdad, I made daily trips into the Red Zone to 
prosecute terrorists in the Iraqi court system. And I know that 
rest and recuperation, or R&R, are essential to functioning at 
a high operational tempo. Currently, the State Department is 
limited in its authority to grant administrative leave to 
personnel serving in combat zones or high-threat, high-risk 
posts. This is especially problematic for locations where 
travel is difficult, unpredictable, and full of delays. These 
logistical challenges require employees to use personal leave 
or leave without pay for the time spent on official travel to 
and from R&R destinations. The status quo is not only unfair to 
these employees, but unsafe if it prevents them from getting 
proper R&R.
    So, this is why I am offering an amendment to the State 
Department Authorization Act which would create a category of 
leave for R&R breaks like those at the Department of Defense 
for combat zones, high-risk, and high-threat posts.
    In addition, I would like to thank the committee for 
including my legislation in the Diplomatic Personnel 
Modernization Act in this bill. It will require a 5-year 
staffing plan for the Department of State to ensure 
organization and efficiency within the agency, to help them 
carry out the great work they are doing around the world.
    So, thank you, Mr. Chairman. I yield back the balance of my 
time.
    Chairman Engel. Thank you, Mr. Reschenthaler.
    Mr. Bera.
    Mr. Bera. Thank you, Chairman Engel and Ranking Member 
McCaul, for your important work on this legislation. I also, in 
addition, want to thank the staff, folks like Laura Cary who 
works for Chairman Engel, for really getting this done.
    In my capacity as chairman of the Oversight and 
Investigations Subcommittee, we have already begun to dive into 
many of these important issues and recognize, as we look at 
personnel issues, et cetera, our job is to conduct oversight 
and provide guidance, but at the same time not micromanage 
State or oversaturate them with important reporting 
requirements. Thus, as we go into the rest of this Congress, we 
plan to dive further into these core questions related to 
authorities the Department has been requesting of us for years.
    I also want to thank the chairman and Ranking Member for 
including my amendment to the State Department authorization 
bill. This amendment is simple. It requires the State 
Department to report on changes it makes to the Foreign Affairs 
Manual. The Foreign Affairs Manual, essentially, is the State 
Department's own internal regulatory document. These 
regulations dictate how our diplomats conduct their work. It 
touches on many of the areas that the bill seeks to address, 
like staffing. Essentially, the Foreign Affairs Manual, for 
instance, lays out the process for creating positions at our 
overseas missions abroad.
    But the Foreign Affairs Manual also regulates consular and 
immigration services that the State Department provides. So, 
these changes directly impact not only our diplomats abroad, 
but also Americans and their families here at home. Thus, it is 
critically important that Congress know how the State 
Department is changing this important document.
    I, again, thank both Chairman Engel and Ranking Member 
McCaul for including this amendment en bloc and for your 
important work on this legislation.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. Bera.
    Mr. Guest. OK. The gentleman passes?
    Mr. Guest. Yes, sir, I pass. Thank you, Mr. Chairman.
    Chairman Engel. Yes. OK. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman and Ranking Member 
McCaul, for holding this hearing and for your leadership in 
having Congress address the State Department authorization 
bill.
    I support this legislation to strengthen operations at the 
State Department, increase its ability to recruit and retain a 
diverse work force, and provide authority for important offices 
doing critical work, like the Office of Global Women's Issues 
and the Office of International Disability Rights.
    I especially thank you both for working with me to add 
language to the bill enhancing the Office of International 
Disability Rights and expressing Congress' intent to ensure 
that our embassies and consulates abroad are balancing security 
with accessibility for persons with disabilities.
    More than 1 billion people around the world have a 
disability. Eighty percent of those live in developing 
countries. Sixty percent of persons with disabilities are 
women, and women with disabilities are more likely to 
experience sexual violence than women without disabilities. 
There are more than 90 million children with disabilities 
worldwide, and children with disabilities are more likely to be 
malnourished than children without.
    Disability rights cut across all sectors, including 
democracy, human rights, labor, global health, education, and 
disaster relief. The International Disability Rights Team, 
which under this bill would permissibly be authorized as an 
official office, provides guidance on making democracy and 
human rights activities more inclusive, encourages foreign 
governments to combat discrimination, promotes disability-
inclusive practices and training of State Department staff, and 
ensures emergency planning and humanitarian aid are accessible 
to persons with disabilities. The team also has been 
fundamental in gathering and producing information for the 
State Department's annual human rights and human trafficking 
reports. Elevation of this team to an established office will 
enhance its capacity to be influential within the Department 
and to serve as a resource for other departments and agencies 
that engage in international work.
    I also want to thank Mr. Malinowski for his leadership on 
the Saudi Arabia Human Rights and Accountability Act, and our 
chair and Ranking Member for allowing the committee to hold 
Saudi Arabia accountable for its human rights abuses. From the 
murder of the journalist to arbitrary arrests, censorship, 
ongoing detention, and abuse of women's rights activists, the 
death penalty for consensual same-sex relationships, strikes 
against Yemen that target hospitals, a school bus, and killings 
at weddings, killing thousands of children and civilians, we 
just cannot ignore such actions.
    I am deeply appalled by the ongoing imprisonment of women's 
rights activists, some of whom have been held in solitary 
confinement for months and subjected to abuse, including 
electric shock, flogging, and sexual assault. Women who are 
speaking up for equal rights and access to something as simple 
as the right to drive are challenging the male guardianship 
system and, thus, have been arrested and subjected to torture 
and sexual harassment.
    It is imperative that we send a signal, not only to the 
President of the United States, but also to Saudi Arabia that, 
while the Trump administration is willing to look away in the 
interest of Saudi Arabia and some personal relationships, we in 
Congress view their actions as deeply damaging.
    So, I thank you for this time and for bringing these bills 
forward. And I yield back.
    Chairman Engel. Thank you, Ms. Titus.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman and Ranking Member 
McCaul.
    I want to speak in support of two pieces of legislation we 
are considering today, H.R. 2037, the Saudi Arabia Human Rights 
and Accountability Act of 2019, and House Resolution 222, 
emphasizing the importance of alliances and partnerships.
    Regarding the first, the killing of Jamal Khashoggi was, 
above all, a human tragedy. All of us here today can vividly 
remember the experience of watching and hearing his fiancee 
testify before this committee last month. Her heartbreak and 
incomprehension at the cruelty of the act committed were 
palpable. All of us could see a part of ourselves in her story.
    But, Mr. Chairman, Jamal Khashoggi's assassination was more 
than an individual incident, as tragic as it was for those most 
directly involved. This assassination was also an affront to 
the values, interests, and norms that underpin the 
international system that the United States helped build in the 
aftermath of World War II. That international system led to 
greater peace and prosperity than the world had ever known. 
Partnerships in international institutions, as imperfect as 
they are, emerged as mechanisms for resolving conflicts rather 
than brute force.
    By assassinating a journalist who was also a permanent 
resident of the United States in the embassy of a foreign 
country, Turkey, a NATO member and ally, the Saudi government 
took actions that directly undermined our Nation's principles 
and interests. They set an unacceptable precedent for other 
countries around the world. And so far, they have seen very few 
costs from the United States.
    This bill, H.R. 2037, is about ensuring that there is 
accountability for those actions. That means consequences: a 
report from the Director of National Intelligence on those 
involved in the events and efforts to impede the resulting 
investigation, sanctions on those aforementioned individuals, 
and a full report on Saudi Arabia's human rights record to be 
presented to Congress.
    I urge my colleagues on both sides of the aisle to pass 
H.R. 2037 out of committee with a resounding bipartisan vote. 
We must come together to send a powerful signal to Saudi Arabia 
that our Nation will stand up for core values and interests 
with regard to all countries, adversaries and allies alike.
    I would also like to speak about House Resolution 222. In 
December 1947, in the wake of the devastation of World War II, 
President Harry Truman delivered a special message to Congress 
on the importance of supporting our European allies in the task 
of rebuilding their nations. President Truman wrote, ``We must 
decide whether or not we will complete the job of helping the 
free nations of Europe to recover from the devastation of the 
war. Our decision will determine in large part the future of 
the people of that continent. It will also determine in large 
part whether the free nations of the world can look forward 
with hope to a peaceful and prosperous future as independent 
States or whether they must live in poverty and in fear of 
selfish totalitarian aggression.'' End quote.
    As a result of the leadership demonstrated by President 
Truman and Members of Congress, our Nation came to the aid of 
our allies during their time of greatest need. We built a 
norms-based international system designed to ensure lasting 
peace and order anchored in alliances, partnerships, and 
international institutions.
    But today, alarmingly, far too many of our country's 
closest allies are not certain that they can count on us. In 
some cases, they are not sure whether we are still a country 
that keeps our word and honors our obligations. We must 
remember that we cannot effectively advance our country's 
interests if we do not stand with our allies. And we must 
remember that our democratic values, our commitment to human 
rights, and our respect for international norms are not 
burdensome obstacles to doing business around the world; they 
are the very cornerstones that underpin our country's success.
    House Resolution 222, emphasizing the importance of 
alliances and partnerships, reaffirms are commitment to the 
international system that our country helped build. It 
reassures our allies that this commitment is bipartisan and 
that we understand those alliances and partnerships. And it 
calls on the President to make clear that America will never 
waiver in staying true to our allies and the interests and 
values that bind us together.
    I am proud to support H.Res. 222, and I urge my colleagues 
on both sides of the aisle to do the same.
    Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you, Ms. Wild.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman. Let me congratulate 
you, Mr. Chairman and Ranking Member, for forwarding this group 
of bipartisan efforts that will certainly make our country 
safer, make the world safer. It will further our standing in 
the international community across the planet, and it will 
address very specific issues that I think are relevant and 
important not only to our Nation, but to the entire world.
    I would like to highlight two of the initiatives that we 
are taking up today, the first one being H.Res. 358, headed by 
Congresswoman Karen Bass of California, calling on the 
government of Cameroon and armed groups to respect the human 
rights of all Cameroonian citizens and to end the violence 
there in that African country, and to pursue a broad-based 
dialog without any preconditions to resolve this conflict that 
could really lead to massive bloodshed between the government 
and separatists in that country.
    It is important that we continue to play a mediation role, 
a leadership role, across the world to further democratic 
values in all continents, and obviously, including in this 
African country of Cameroon, to ensure that the rest of the 
world looks at us as a beacon of hope and opportunity because 
of our commitment to democratic values. So, I think that H.Res. 
358 helps us get there and further establishes us as a leader 
in the international community, particularly in a continent 
that has looked toward China for investment, has to looked to 
China for leadership, perhaps because of a vacuum of leadership 
that we have left there. And this particular action will help 
us fill that void, fill that vacuum, and reestablish our 
footing in such an important continent as Africa.
    Mr. Chairman, the second bill that I would like to 
highlight is H.R. 2037, which is the Saudi Arabia Human Rights 
and Accountability Act. And we all know what happened there in 
Istanbul. We all know that a Washington Post columnist, Jamal 
Khashoggi, went into the embassy, into the Saudi Embassy in 
Istanbul, and never came out. And so, this is troubling that a 
nation like Saudi Arabia will engage in this kind of action, 
and that MBS's leader may have played a pivotal role in the 
disappearance of Khashoggi.
    Now we must take into consideration, Mr. Chairman, that 
this is the country that the current administration wants to 
sell arms to. The same country that was engaged in the 
disappearance of a journalist is a country that this 
administration wants to have a close working relationship with. 
I think this is tragic.
    I think that we must continue to try to find out what 
happened to Jamal Khashoggi. The media and journalists across 
the world must have the ability to communicate what they see 
and hear to citizens across the world. This is an important 
part of democracy, the ability to have access to information 
and data. It is an important component and pillar of democracy. 
And, of course, the death of Khashoggi sent a chilling effect 
to journalists across the world that, if you differ with 
government, you may wind up dead.
    And so, how can we deal with a country like Saudi Arabia? 
How can we deal with MBS if they are engaging in this over-the-
top, heavy-handed and criminal conduct?
    So, I congratulate Mr. Malinowski for this piece of 
legislation, and I urge all of my colleagues to vote for this 
entire package, which I think will further strengthen our role 
and our place in the international community.
    I will yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Espaillat.
    Mr. Phillips.
    Mr. Phillips. Thank you, Mr. Chairman, for both holding 
this markup and to you and Ranking Member McCaul for once again 
working together to reach bipartisan agreement on a bill that 
is so vital to our national security.
    As has been Stated already, a full State Department 
authorization bill has not passed Congress since 2002, and it 
is surely time that we do so.
    As Jim Collins, the author of Good to Great, has said, 
quote, ``Leaders of organizations that go from good to great 
start not with the where, but with the who. They start by 
getting the right people on the bus, the wrong people off the 
bus, and the right people in the right seats.''
    Title 3, and specifically, Section 313 of this bill focuses 
on the right stuff, the who. Section 313 requires the Secretary 
to develop a comprehensive 5-year strategic staffing plan for 
the Department that is aligned with the objectives of the 
National Security Strategy, including data on current and 
projected work force needs.
    With the help of Representative Spanberger, her wonderful 
staff, and the expert committee staff on both sides of the 
aisle, we were able to come up with an amendment that improves 
upon the language in Section 313. Our amendment ensures that 
State's report directly addresses the shortages outlined in a 
GAO report, which State concurred to, entitled, ``Integrated 
Action Plan Could Enhance Efforts to Reduce Persistent Overseas 
Foreign Service Vacancies''. It also requires the Secretary to 
issue a report that describes the root causes of Foreign 
Service and civil service shortages, their efforts on national 
security, and proposals to remedy them.
    Shortages of Foreign Service Officers and Specialists 
overseas is having a profound impact on our national security. 
For example, at an embassy in Africa recently, when asked what 
was the biggest detriment to competing with the Chinese, the 
answer given by the country team was the presence of unfilled 
FSO positions in the embassy.
    Mr. Chairman, not only is it time for this committee to 
reassert its jurisdiction in matters of national security, it 
is also time for the State Department to reassert its 
jurisdiction. This bill, Title 3, and our amendment helped to 
do just that.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Engel. Thank you, Mr. Phillips.
    Ms. Omar.
    Ms. Omar. Thank you, Chairman. I want to thank you and 
Ranking Member Mr. McCaul for bringing these important bills 
for markup today.
    I would like to say a few words on some of the bills within 
this package. First, I absolutely agree that diplomacy and 
development are critical national security tools. For millions 
of people around the world, their first, and sometimes only, 
interaction with the United States is with the military. We 
project so far to many people that our only interest in their 
countries and their well-being is that they are a security 
problem that we need to be solved.
    When we are fighting the plague of violent extremism, we 
simply cannot drone the problem to death. We must take a 
smarter approach that focuses on root causes and brings people 
to the negotiating table.
    This is also why the resolution on the importance of 
democracy, human rights, and the rule of law is so important. 
Of course, there is a moral argument for putting those things 
front and center in our foreign policy, and I do sincerely 
believe we must reflect our values when we engage around the 
world. But it is not only a moral argument; it is also a 
pragmatic one. Addressing root causes, empowering communities, 
insisting that our partners respect human rights, these are 
proven tools in the fight against extremism and terrorism.
    When we talk about human rights, democracy, and the rule of 
law, we must apply those to friends as well as to adversaries. 
They must be sincerely held principles and not just political 
weapons to use when it is convenient for us.
    Mr. Malinowski's bill that is before us today is an 
important recognition of this principle. Our long-time alliance 
with Saudi Arabia is under the microscope now. That is long 
past due. The truth is there is no credibility to our attacks 
on Iran's human rights record if we do not hold Saudi Arabia, 
the United Arab Emirates, and Bahrain to that same standard.
    This brings me to the third framing resolution on the 
importance of alliances. We have seen the disaster of taking 
drastic actions without the support of our allies in this 
administration's reckless, unilateral approach in Venezuela and 
in Iran. We are stronger and safer when we work with countries 
toward a common goal and when we play our part in international 
institutions. But, as it is in the case of Saudi Arabia now, 
our alliances and partnerships should not be written in stone. 
We should not politely support regimes that turn into 
dictatorships or also abuse human rights just because we have 
been allies with them for a long time.
    This brings me to H.R. Resolution 358, the resolution on 
Cameroon. I am a proud original sponsor of this resolution, and 
I want to thank my colleagues, Ms. Bass and Mr. Smith, for 
introducing it.
    Cameroon is a perfect example of a country where a serious 
and pressing security problem has caused us to approach our 
policies there with too emphasis on defense and not enough on 
diplomacy and development. I applaud the decision to restrict 
security aid, but for too long we looked the other way on the 
atrocities being committed in the English-speaking region 
because of our partnership in the fight against Boko Haram. 
Again, this is immoral, but it is also counterproductive. This 
solution is an important step in the right direction.
    Finally, all of these principles are the reason for my 
amendment to the State authority bill before us today. The 
Office of Global Criminal Justice at the State Department does 
crucial work. The United States had been a leader on 
international criminal justice since Nuremberg. The emergence 
of international justice framework to confront atrocity crimes 
is one of the most important innovations of the 20th century. 
The Office of the Global Criminal Justice upholds this proud 
American tradition of supporting the principle that nobody, no 
president, no dictator, no king, is above the law. It is 
dedicated to the mission of saying some crimes are so horrific, 
they are truly crimes against humanity. My amendment places the 
Office of Global Criminal Justice where it belongs, as an 
essential part of our foreign policy and our State Department.
    Mr. Chair, I yield back. Thank you so much for your work on 
this.
    Chairman Engel. Thank you, Ms. Omar.
    Ms. Houlahan.
    Ms. Houlahan. Thank you, Mr. Chairman, for the markup, and 
to you and the Ranking Member for this amazing bipartisan lift 
today.
    As it stands today, in order to be considered for certain 
civil service positions at the State Department, candidates 
must have a degree in the humanities. In other words, only 
those with a background in subjects like political science or 
international relations can fill these policy positions. What 
we have, then, are civil servants working on complex technical 
issues like nuclear nonproliferation without any academic 
background or experience in STEM.
    I graduated from Stanford from an engineering degree. And 
had I wanted to pursue one of those civil service positions, I 
would have been turned away. Instead, I served in the Air Force 
and ended up working, as it turns out, on issues of nuclear 
nonproliferation. So, I am speaking from direct personal 
experience when I say that a background in STEM is a huge asset 
in dealing in these highly technical issues.
    To prevent bright people from finding jobs at our State 
Department, to prevent people with expertise on these specific 
issues that they would be addressing, is counterintuitive. Why 
would we not want the best people for the job with the most 
relevant backgrounds?
    My first amendment to the State Department Authorization 
Act allows the Secretary of State to waive any or all job 
requirements set by the Office of Personnel Management for 
these types of positions, including educational requirements 
for candidates who possess significant STEM experience. We need 
their expertise, especially today when technology and science 
continue to develop at rapid rates. Thank you to the chair and 
to the Ranking Member for including this amendment.
    The second issue I would like to elevate today before this 
committee is paid family leave. While I believe Congress must 
work toward affording all Federal employees paid family leave, 
this committee must first overcome the hurdle of ensuring that 
all State Department employees are afforded equal flexibility 
with respect to leave policy.
    Currently, each bureau within the Department is allowed to 
set its own guidelines regarding how paid leave may be 
utilized. Some bureaus allow their employees to use sick days, 
like for the birth or adoption of a child, while others do not. 
For many parents, this means asking their colleagues to donate 
leave time, so that they can take time off to welcome a child 
to their family without suffering the loss of pay. The 
Department has no standardized policy to provide family leave 
for its employees, and this is wrong, plain and simple.
    By requiring the Secretary of State to implement a standard 
parental leave policy, and to submit a report to Congress, my 
second amendment will allow us to assess the impacts of 
standardized policy and work toward what is right by these 
dedicated public servants.
    I and other people deal best in data. And so, here is some: 
the United States exists as the sole and only remaining 
industrial country with no national family leave policy. One in 
six Americans spend an average of 20 hours week every week 
taking care of sick or elderly family member. Twenty-five 
percent of new mothers return to work in just 10 days after 
childbirth--10 days. As a mother myself, I can promise you that 
that is not enough.
    It is time that we take action and that we join the rest of 
the industrialized world in advocating for workers and their 
families. And this amendment, my amendment, is a critical first 
step in addressing an issue that we have neglected for far too 
long. We in the Federal Government have the opportunity to lead 
by example, and this amendment demonstrates our commitment to 
the men and women at our State Department and to their 
families.
    I, again, thank the chair and our Ranking Member for 
including these important amendments in their legislation, and 
I thank you once again for the chance to speak.
    I yield back the balance of my time.
    Chairman Engel. Thank you, Ms. Houlahan.
    Mr. Lieu.
    Mr. Lieu. Thank you. I would like to commend you, Mr. 
Chair, as well as Ranking Member McCaul, for your leadership in 
shepherding forward this bill, the Department of State 
Authorization Act of 2019.
    I speak now in support of my amendment, which seeks to 
improve the Department's cybersecurity posture. The language is 
taken from bipartisan legislation that I introduced with my 
colleague, Ted Yoho of Florida. It was called the Hack Your 
State Department Act. That legislation was marked up by this 
committee and, subsequently, passed by the full House on a 
bipartisan basis.
    Over the years, the State Department has faced mounting 
cybersecurity threats from both criminal enterprises and State-
sponsored hackers. In 2014, for instance, the Department was 
infiltrated by Russian hackers and had to temporarily shut down 
its email system. Last year, the State Department suffered 
another breach of its email system, exposing the personal 
information of a number of its employees.
    As an agency with a critical national security role, we 
must do more to protect its cybersecurity. As a recovering 
computer science major, I recognize that there are proven tools 
at our disposal to improve cybersecurity that the Department 
has yet to adopt.
    My amendment will bring that very tool to the State 
Department after it was proven so successful both in the 
private sector and at the Pentagon. This amendment will do two 
things. The first is to establish what is called a 
vulnerability disclosure process, which sets clear rules of the 
road. So that when people outside the Department discover 
vulnerabilities on Department systems, they can report it in a 
safe, secure, and legal manner.
    The second step is to actually pay vetted, white hat 
hackers to find vulnerabilities. The Department of Defense 
proved the success of the bug bounty program in 2016. Over a 
24-hour period, the Pentagon learned and fixed over 138 
vulnerabilities, and we need to do the same thing for the State 
Department.
    And again. I thank Chairman Engel and Ranking Member McCaul 
for their support of this amendment. And I yield back.
    Chairman Engel. Thank you, Mr. Lieu.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    I very strongly support the entire package. I am very happy 
to see that we are moving ahead with the authorization bill, 
and want to say a few words, in particular, about my bill, the 
Saudi Arabia Human Rights and Accountability Act.
    I am very grateful to you for bringing this forward. I am 
particularly grateful to Ranking Member McCaul for working with 
us. The result of our common effort is a strong, bipartisan 
statement that it matters to us; it matters to the United 
States how our partners treat their people; that we do not 
exempt Saudi Arabia from that principle simply because we have 
a longstanding security relationship; and, in particular, that 
we must see accountability for the killing of Jamal Khashoggi.
    I have spent much of my career thinking about how the 
United States can most effectively advance our commitment to 
human rights and democracy around the world. It is not always 
easy. I always acknowledge this is not our only interest in the 
world.
    But the Khashoggi case is not just about human rights in 
Saudi Arabia. What happened to Jamal Khashoggi did not happen 
in Saudi Arabia. Khashoggi was resident of the United States. 
He had every reason to believe that he was safe here. He was 
lured to a Saudi embassy and brutally murdered on the soil of a 
NATO ally.
    What happened to Jamal Khashoggi is not common. Human 
rights abuses around the world are common, but what happened to 
him is not common. Few dictatorships are brazen enough to reach 
out beyond their borders to kill their critics living overseas. 
Russia did it recently when it poisoned two of its critics 
living in the United Kingdom. Iran has reportedly done it 
several times in recent years. And now we add Saudi Arabia to 
the list.
    And it is important for us to remember that, despite all of 
the controversy and anger following the case of Mr. Khashoggi, 
the Saudis do not appear to have gotten the message. Our 
intelligence community, since the killing of Khashoggi, has had 
to warn three individuals living overseas, and including an 
American citizen living in the United States, of threats from 
the Saudi government.
    So, we cannot allow this to become the norm in 
international relations. We have to remember there are 
thousands of Jamal Khashoggis living in the United States today 
in every part of our country. They come to us from China, from 
Russia, from Cuba, from Iran, from dictatorships around the 
world. And here, they speak out. They write about what goes on 
in their countries. They should feel safe.
    So, what this amendment does is it requires the State 
Department to do what it has said is the administration's 
policy, and that is to hold accountable everybody who is 
responsible for this brutal crime. It requires the Director of 
National Intelligence to name the perpetrators, and it imposes 
visa sanctions on those individuals.
    It says to the Saudi government that they can have a close 
and enduring relationship with the United States, but they 
cannot take advantage of that relationship to get away with 
murder. And it says something else to the world that is very 
important right now, particularly given the standoff that we 
are engaged in with Iran, that our concerns about human rights 
abuses in that country, our concerns about other violations of 
international law by the regime in Iran are not about the 
United States blindly taking sides with our Gulf allies. They 
are about America standing up for principles that we apply 
equally to everybody.
    Thank you, and I yield back my time.
    Chairman Engel. Thank you, Mr. Malinowski.
    Mr. Trone.
    Mr. Trone. Thank you, Mr. Chairman and Ranking Member 
McCaul.
    Today's markup includes a number of really important, 
bipartisan bills that help exert congressional priorities for 
proper management at the State Department. It also allows us to 
reinforce fundamental principles in our diplomacy, like respect 
for human rights, adherence to the rule of law, and the need 
for cooperation with our allies.
    I would particularly like to highlight Mr. Malinowski's 
bill, the Saudi Arabia Human Rights and Accountability Act. 
Next week will mark 9 months since the brutal murder of Jamal 
Khashoggi at the hand of Saudi agents inside the Saudi 
consulate in Istanbul. Our own intelligence community assesses 
with high confidence that the crown prince, Mohammad bin 
Salman, ordered the assassination. Yet, President Trump has 
refused to submit to Congress a determination of responsibility 
of that killing, a report mandated under the Global Magnitsky 
Act. Clearly, Congress must take further action to get answers.
    I am proud to cosponsor Mr. Malinowski's bill because it 
will require the DNI to produce a report with the information 
we have been seeking from the Trump administration. It is 
unacceptable that this information has been withheld from us. 
This is not a partisan issue. We all agree that the cold-
blooded murder of Mr. Khashoggi was wrong and those involved 
should be held accountable.
    It is worth noting the United Nations, in its own 
independent report on the matter, recommended that the U.S. 
undertake a criminal investigation into the execution of Mr. 
Khashoggi. The U.N. also encourages the U.S. Government to 
publicly release all information related to the murder. We have 
to be vigilant in demanding responses to these unanswered 
questions.
    Under this bill, any current or former Saudi officials, as 
well as Saudi political figures, responsible for ordering, 
directing, or otherwise supporting the murder would be named 
and hit with travel sanctions. We absolutely should not allow 
these individuals free entry or access to the United States.
    Further, the bill requires a much-needed report on Saudi 
Arabia's human rights record. Sadly, the killing of Mr. 
Khashoggi is not the only egregious human rights violation 
attributable to our security partner. Saudi Arabia is also 
currently detaining a number of women's rights advocates 
without conviction of any crime for their roles in opposing the 
male guardianship system and in speaking out against the ban on 
women driving, even though it came to an end over a year ago.
    It is important for the U.S. Government to report 
accurately and honestly on these developments as we have 
serious, frank conversations with Saudi Arabia about the 
responsibilities they bear to uphold human rights and dignity.
    For these reasons, I am glad to see the Saudi Arabia Human 
Rights and Accountability Act move forward in the Foreign 
Affairs Committee today, and I encourage all our colleagues to 
join.
    I want to thank Mr. McCaul. And Mr. Chairman, I yield back 
the balance of my time.
    Chairman Engel. Thank you, Mr. Trone.
    Mr. Connolly.
    Mr. Connolly. I thank the chair. Let me, first of all, 
thank the chair and the Ranking Member for helping return us to 
regular order in the State Department authorization 
legislation, and for really performing a legislative miracle, 
which is a relatively uncontestable, non-controversial 
reauthorization.
    I remember, and I believe Mr. McCaul and Mr. Engel do as 
well, a 2-day marathon when Ms. Ilena Ros-Lehtinen was chair, 
and we started like at 9 or 10 in the morning and went until 1 
or 2 in the morning 2 days in a row with incredible amounts of 
amendments and discussion and debate in an exercise that kind 
of went nowhere. But, nonetheless, we did it.
    And this in sharp contrast to that, and I think it really 
is testament to the leadership on both sides, you, Mr. Engel, 
and you, Mr. McCaul. And I mean it sincerely. I was a staffer 
on the Senate Foreign Relations Committee, and I know, I used 
to be in charge of the foreign aid authorization bill. In fact, 
we wrote the last foreign aid bill to become law in 1986, and 
it is not an easy task. It looks easy, but it is not. So, thank 
you both for your leadership.
    I also want to thank you both for including in the final 
product my amendment on legislation that enhances the State 
Department's diversity and inclusion efforts. The National 
Security Diversity and Workforce Inclusion Act, H.R. 2979, is 
sort of the genesis of that amendment. And it promotes 
diversity in Federal national security offices.
    The authorization bill before us today requires regular 
reporting on demographic data related to the State Department's 
work force and diversity efforts and encourages State to expand 
its recruitment and retention programs to facilitate a diverse 
work force.
    The amendment adds two more key sections from that 
legislation regarding leadership engagement and professional 
development. The amendment directs the Secretary of State to 
implement performance and advancement requirements recognizing 
the efforts of senior leaders to foster an inclusive 
environment. On professional development, the amendment 
requires the Secretary to offer a career advancement program 
for senior positions that encourages diverse participation.
    Diversity, as we know, is a unique source of strength for 
America, our economy, and our national security. And by the 
way, when that diversity is reflected in, for example, an 
embassy overseas, it is a great statement about who we are as 
an inclusive country and multiracial, multiethnic country that 
works. We must ensure our Federal work force reflects that face 
of America, that pluralistic America. And I am delighted that 
the bill includes that amendment.
    And with that, I yield back.
    Chairman Engel. Thank you, Mr. Connolly.
    Ms. Spanberger.
    Ms. Spanberger. I would like to thank Chairman Engel and 
Ranking Member McCaul for their leadership in introducing the 
Department of State Authorization Act.
    As a former National Security Officer who has served 
overseas, I can attest to the vital work of the State 
Department and its work force. Our diplomatic corps, our civil 
service officers, and the contractors, and local staff who 
support them, ensure that U.S. interests and values are upheld 
around the world. They ensure we pursue diplomatic solutions 
and prevent conflicts before they start. They ensure we have 
strong allies and partners who will stand with us in times of 
crisis, and they ensure we have economic opportunities for 
American businesses and a safe, secure world for our children.
    This bill is the first step in doing our part to ensure 
those officers who represent us at home and abroad are 
represented here in Congress and have the resources, guidance, 
and support they need to do their job.
    I am proud to support this bill and introduce a handful of 
amendments. These amendments would keep the State Department 
work force safe from sexual harassment and sexual assaults, 
improve security assistance coordination with the Department of 
Defense and the combatant commands, help Congress and the 
American people better understand how our military deployments 
support diplomatic strategies, and how our security assistance 
funding--taxpayer dollars--are intended to provide flexibility 
to our military to focus on the highest-priority threats.
    I am also honored to join my friend and colleague, 
Congressman Dean Phillips of Minnesota, and his team to support 
an amendment that would continue to address the impact of 
foreign service and civil service vacancies across the 
Department and push for implementation of independent 
recommendations. So, we have the strong, capable work force we 
need to represent American interests worldwide.
    I encourage my colleagues to support this important bill 
and ensure we support the tireless work of our diplomatic and 
civil service corps.
    Thank you. I yield back.
    Chairman Engel. Thank you, Ms. Spanberger.
    Are there any other members seeking recognition?
    Hearing no further requests for recognition, then, without 
objection, the committee will proceed to consider the noticed 
items en bloc.
    A reporting quorum is present.
    And without objection, each measure is considered as read, 
and the amendments to each are considered as read, and are 
agreed to.
    [The bills, resolutions, and amendments en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. The question occurs on the measures en bloc 
as amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to.
    And without objection, each measure is ordered favorably 
reported as amended, if amended, and each amendment to each 
bill shall be reported as a single amendment in the nature of a 
substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes.
    And this concludes our business today. I, again, want to 
thank all the members--I especially want to thank Ranking 
Member McCaul--for everyone's contribution and assistance with 
today's markup.
    The committee stands adjourned.
    [Whereupon, at 11:31 a.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
